                                                                        memorandum
Regional Inspector General
        Pretoria




       DATE:                 February 7, 2000

       TO:                   Mission Director, USAID/Namibia, Carole Scherrer-Palma

       FROM:                 Regional Inspector General/Pretoria, Joseph Farinella

       SUBJECT:                Audit of the Accuracy of USAID/Namibia’s Recipient Audit Universe,
                             Report Number 4-673-00-003-P


       This is the final report on the subject audit. We received your comments to our draft report and
       included those comments as Appendix II to this report.

       This report has no recommendation. I appreciate the cooperation and courtesies extended to my
       staff during the audit.


       Background

       Financial audits of contracts and grants are a primary basis for effective management and control
       of USAID’s program expenditures. These audits are designed to provide Agency management
       reasonable assurance that transactions are properly recorded and accounted for; laws and
       regulations, and provisions of contract or grant agreements are complied with; and USAID-
       financed funds, property and other assets are safeguarded against unauthorized use or disposition.

       In response to Congressional concerns, USAID has taken an active role in recent years using audits
       as a management tool to improve financial accountability of its programs. During 1991 and 1992,
       the Agency revised its standard provisions for its contracts and grants, requiring annual audits of
       non-U.S. organizations disbursing USAID funds of $25,000 or more. The threshold was increased
       to $100,000 in May 1994 and to $300,000 in July 1998.

       Furthermore, in April 1992, USAID issued a General Notice, defining the role of USAID missions
       in obtaining audits of their contracts, grants and cooperative agreements with non-U.S.
       organizations. In May 1996, these requirements were incorporated into chapter 591 of USAID’s
       Automated Directives System (ADS) which, among other things, requires USAID missions to (i)
       establish an audit management program; (ii) maintain an audit inventory database; and (iii) have
       audits done for non-U.S. grants, contracts and cooperative agreements that meet the audit
threshold.

These initiatives are of far reaching consequence in preventing misuse of USAID development funds
and facilitating timely corrective actions by the Agency. Lack of adequate audit coverage
constitutes an unacceptable risk because, without such a control mechanism, financial accountability
of program expenditures cannot be reasonably assured.

In March 1995, the Office of Inspector General (OIG) issued Audit Report No. 03-95-009 on
USAID’s implementation of the Agency’s 1992 initiative to improve the financial management of
its programs. The report concluded that most missions had implemented the general requirements
of the financial audit management program and established audit inventory databases. However,
complete coverage was impaired as a result of obstacles arising from host government restrictions
and local audit firm capabilities.

In March 1998, the OIG issued Audit Report No. 9-000-98-002-F on USAID missions’ roles
in obtaining audits of their contracts, grants, and cooperative agreements. The report concluded
that 11 of the 14 USAID missions selected Agency-wide generally obtained audits of their
contracts, grants, and cooperative agreements as required by ADS chapter 591. However, a
significant number of required audits were not completed at 10 of the above 14 USAID Missions.

In May 1999, OIG management decided to verify the accuracy of USAID missions’ recipient audit
universe worldwide over a period of three years because lack of audit coverage was perceived as
a high-risk area. Accordingly, RIG/Pretoria included this audit in our fiscal year 2000 audit plan.


Audit Objective

RIG/Pretoria performed this audit to answer the following question:

          Is USAID/Namibia’s audit universe accurate and were required audits
          conducted in a timely manner?

The audit scope and methodology are described in Appendix I.



Audit Findings

The audit showed that USAID/Namibia developed an accurate audit universe and required audits
were conducted in a timely manner.

As of September 30, 1999, USAID/Namibia disbursed $5,071,411 to 9 U.S and 1 non-U.S.
organizations. The table below provides a breakdown of these disbursements by type of agreement
and by number and type of recipients:


                                                2
                               U.S.                     Non-U.S.                   Total
                     Disbursements and No.          Disbursements and       Disbursements and
     Type of             Of Recipients              No. Of Recipients       No. Of Recipients
    Agreement
Contract                   $1,349,002       2                  0    0           $1,349,002         2
Grant/Delivery                 85,656       1          251,233      1              336,889         2
Order
Cooperative                 3,385,520       6                  0    0            3,385,520         6
Agreement
         TOTAL             $4,820,178       9         $251,233      1           $5,071,411     10



From this table, we determined that the above one non-U.S. recipient with a total disbursement of
$251,233 was subject to audit coverage at September 30, 1999. We then ascertained that the
above recipient was included in the Mission’s audit database inventory, and the required audit was
scheduled to be completed on a timely basis.

In addition, the Mission took several actions to implement an audit management program in
accordance with the requirements of ADS Chapter 591which included:

•   establishing a Management Control Review Committee to monitor the status of the Mission’s
    audit program and to assure that its audit responsibilities were carried out;

•   designating an audit management officer to coordinate and monitor the Mission’s financial audit
    program and follow up on implementation of recipient-contracted audit recommendations;

•   including required audit clauses in its grants and contracts and budgeting funds for audits;
    and

•   maintaining an automated inventory of contracts, grants, and cooperative agreements
    requiring audits and to track such audits.



Management Comments and Our Evaluation

USAID/Namibia management concurred with the report’s contents, findings, and conclusions and
stated that the audit was carried out in a professional and thorough manner.




                                                3
                                                                             APPENDIX I



                             SCOPE AND
                            METHODOLOGY




Scope

The audit was performed in accordance with generally accepted government auditing standards and
assessed whether (1) USAID/Namibia’s audit universe was complete and accurate, and (2)
required audits were done in a timely manner.

The OIG conducted a “Worldwide Audit of Selected Missions’ Role in Obtaining Audits of Their
Contracts, Grants and Cooperative Agreements (Report No. 9-000-98-002-F,
March 20, 1998).” That report considered recipient financial audits which had been completed as
of October 31, 1996. Therefore, we obtained information on audits completed after that date.

Field work was performed at USAID/RCSA in Gaborone, Botswana from November 1 through
November 4, 1999 and covered $251,233 of USAID disbursements. The audit scope included:

 (1) reviewing the Mission’s audit management program and related documents,

 (2) interviewing cognizant Mission officials, and

 (3) reviewing the Mission’s automated database universe of contracts, grants, and cooperative
     agreements and identifying those that require audits

In addition, we obtained information on (1) total disbursement for all grants, contracts and
cooperative agreements (U. S. and non-U.S.) for USAID’s latest fiscal year ended September 30,
1999 and, (2) the number and amount of grants, contracts and cooperative agreements falling
below the audit threshold of $300,000 to obtain a complete picture of the Mission’s portfolio.

The audit criteria principally comprised of Chapter 591 of USAID’s Automated Directives System
(ADS) and the OIG’s “Guidelines for Financial Audits Contracted by Foreign Recipients”
(Guidelines), revised in July 1998
Methodology

The methodology included (1) reviewing the Mission’s audit inventory database system to
determine if it contains the information needed to monitor and track required audits, and (2)
examining documentation, and (3) conducting interviews with cognizant officials to determine
whether the Mission has met its responsibilities established by ADS Chapter 591 and the
Guidelines.

To answer our audit objective, we obtained the universe of USAID/Namibia’s grants, contracts
and cooperative agreements and determined the number and dollar amounts of all agreements with
non-U.S. organizations subject to audit coverage at September 30, 1999. The above information
was obtained from the Mission’s contract files and the Mission Accounting and Control System
(MACS) database. We then ascertained whether: (1) such agreements were included in the
Mission’s audit database inventory, (2) required audits were completed on a timely basis, (3) audit
reports were prepared in accordance with USAID’s guidelines and sent to RIG/Pretoria for desk
review, and (4) the agreements contained the required audit clauses.

We did not audit the Mission’s MACS database system because of time constraints and because
it was not directly relevant to our audit objective. Also, because of the small size of our audit
universe, we did not use a materiality threshold and considered even one exception as significant
for reporting purposes.
APPENDIX II
